U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      Review of the United States
                        Marshals Service’s
                    Apprehension of Violent Fugitives

                                         July 2005




                                      I-2005-008
                                           DRAFT


                                EXECUTIVE DIGEST


       The Presidential Threat Protection Act of 2000 directed the creation
of fugitive apprehension task forces and encouraged the Department of
Justice (Department) to focus on apprehending violent federal and state
fugitives. In fiscal year (FY) 2001, the Department changed its strategic
plan and shifted the focus of its fugitive apprehension efforts from all
federal fugitives to violent federal and violent state fugitives. 1 The United
States Marshals Service (USMS), the federal government’s primary
agency for apprehending fugitives, is principally responsible for carrying
out the Department’s strategy. To apprehend fugitives of all types,
Deputy Marshals in the 94 federal judicial districts (district) work
individually or as members of warrant squads, district fugitive task
forces, or Regional Fugitive Task Forces (RTF). 2 The Office of the
Inspector General (OIG) initiated this review to evaluate the performance
of the USMS in apprehending violent fugitives. 3

       To evaluate the USMS’s performance, we analyzed trends in
fugitive apprehensions using data from the USMS’s Warrant Information
Network (WIN) from FY 2001 to 2004. We also compared the number of
violent fugitives apprehended to the amount of time (measured in staff
years) that USMS personnel spent on fugitive investigations. In addition,
to examine the effectiveness of the RTFs, we compared the number of
violent fugitive apprehensions in the 15 districts included in the
5 existing RTFs to the number of violent apprehensions in the other
79 districts. We also surveyed all of the USMS district offices about their
violent fugitive apprehension efforts.




       1  The Department’s FY 2000-2005 Strategic Plan, published in September 2000,
focused the Department’s apprehension efforts on federal fugitives, and the FY 2001-2006
Strategic Plan, published in November 2001 to address the events of September 11, focused
the Department’s apprehension efforts on violent federal and state fugitives.

       2   There are currently 5 RTFs encompassing 15 districts. The RTFs were created
under the authority of the Presidential Threat Protection Act of 2000 to reduce the number
of violent fugitives at large by promoting cooperation among federal, state, and local law
enforcement agencies. In October 2004, the Department proposed creating 6 additional
RTFs encompassing 43 districts.

        3 The term “violent fugitives” includes both violent federal fugitives and violent state

fugitives. We defined “fugitives apprehended” as those arrested by the USMS, arrested by
another agency at the direction of the USMS, or who surrendered.

U.S. Department of Justice                                                                i
Office of the Inspector General
Evaluation and Inspections Division
                                         DRAFT


RESULTS IN BRIEF

       The performance of the USMS in apprehending violent fugitives
improved from FY 2001 to FY 2004. During that period, the USMS
increased the number of violent fugitives it apprehended by 51 percent.
We also found that the USMS became more efficient in apprehending
violent fugitives. The number of violent fugitives apprehended per staff
year increased from 18 violent fugitives in FY 2002 to 21 violent fugitives
in FY 2004. 4 We concluded that the USMS’s performance improved
primarily because the USMS increased the staff time dedicated to violent
fugitive investigations by 21 percent and because the five RTFs created
by the USMS were more efficient and effective at apprehending fugitives. 5

       Despite its improved performance, the USMS was unable to reduce
the number of violent federal fugitives at large. From FY 2001 through
FY 2004, the number of violent federal fugitives who remained at large
increased by 3 percent to 14,419 fugitives. 6 The Deputy Marshals we
interviewed said that the number of violent federal fugitives sought by
the USMS increased because the increased number of federal task forces
throughout the country generated more federal fugitives. We found that
the USMS also investigated more federal fugitives referred from other
federal agencies, and that state and local law enforcement agencies
requested more assistance from the USMS in apprehending fugitives.

       Although the increase in the number of violent federal fugitives is
not fully within the USMS’s control, we identified three factors within the
USMS’s control that, if addressed, would improve its effectiveness at
apprehending violent federal fugitives. The factors are that (1) not all
districts assigned violent federal fugitive investigations to the RTFs and

        4 The USMS could not provide data on the amount of time its personnel spent on

fugitive investigations in FY 2001.

       5  Most recently, the USMS used its RTFs and district task forces to coordinate
Operation FALCON (Federal and Local Cops Organized Nationally). Operation FALCON
involved more than 900 federal, state, and local law enforcement agencies, and resulted in
the arrest of 10,340 fugitives from April 4 through 10, 2005. The USMS focused Operation
FALCON’s efforts on apprehending fugitives wanted for gang-related crimes, homicide,
crimes involving use of a weapon, crimes against children and the elderly, crimes involving
sexual assaults, and other crimes of violence.

        6 The number of violent state fugitives under investigation by the USMS and still at

large could not be determined because of incomplete data in WIN. As Marshals in 52 of 88
districts who responded to our survey reported, most districts did not routinely enter state
fugitive investigations in WIN when an investigation was opened. Deputy Marshals were
not required to, and in many districts did not, enter state fugitive investigation data into
WIN until after they arrested the fugitive.

U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


other task forces; (2) the USMS did not fully change its focus from
apprehending all federal fugitives to apprehending violent federal and
state fugitives; and (3) most USMS districts did not enter data regarding
their state fugitives in WIN when the investigations were opened so that
the USMS could more effectively focus its resources on apprehending
violent fugitives.

Reasons for Improved Performance

       The performance of the USMS in apprehending violent fugitives
improved for two main reasons. First, from FY 2002 to FY 2004, the
amount of time that Deputy Marshals and other personnel devoted to
fugitive investigations increased by 21 percent, from 911 staff years to
1,104 staff years. The additional staff time devoted to fugitive
investigations came from both new staff and staff redirected from other
functions. The second reason for the USMS’s improved performance was
that the RTFs provided a more effective approach to apprehending violent
fugitives. According to USMS personnel we interviewed, the wider
geographic coverage of the RTFs, coupled with the Deputy Marshals’ and
task force officers’ authority to cross district boundaries to pursue
fugitives, resulted in the USMS apprehending more violent fugitives.

       Because of these two factors, not only did the USMS apprehend
more federal fugitives – an increase of 51 percent from 14,348 to 21,600
– but it increased its overall efficiency. The increase in the number of
violent federal fugitives apprehended was larger than the 21-percent
increase in resources. Our analysis of the USMS’s data also confirmed
that the RTFs provided a more effective method of apprehending violent
fugitives than district fugitive task forces, warrant squads, and Deputy
Marshals working individually. While the USMS overall achieved a
51-percent increase in apprehensions, the number of violent fugitives
apprehended in RTF districts increased by 67 percent from FY 2001
through FY 2004, as compared to a 45-percent increase in non-RTF
districts over the same period. We also found that RTF districts achieved
greater increases in their efficiency at apprehending violent fugitives.
From FY 2002 through FY 2004, the RTF districts increased the number
of violent fugitives apprehended per staff year from 17 to 22 fugitives,
while the non-RTF districts increased the number of violent fugitives
apprehended from 18 to 20 fugitives per staff year.

More Violent Federal Fugitives at Large

      Despite the increased number of USMS violent fugitive
apprehensions, the number of violent federal fugitives still at large
increased by 3 percent during the last 4 years, from 14,046 in FY 2001

U.S. Department of Justice                                                  iii
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


to 14,419 in FY 2004. Several factors beyond the control of the USMS
contributed to the increase in the number of violent federal fugitives at
large. The Deputy Marshals we interviewed stated that the increased
number of federal task forces throughout the country generated more
federal investigations. In addition, the USMS investigated more federal
fugitives referred from other federal agencies. Also, after the Department
changed its focus from apprehending all federal fugitives to
apprehending violent federal and violent state fugitives, state and local
law enforcement agencies requested more assistance from the USMS in
apprehending fugitives.

Factors That Limited Violent Fugitive Apprehensions

       Although the increase in the number of violent federal fugitives is
not fully within the USMS’s control, we identified three factors within the
USMS’s control that, we believe if addressed, would improve its
effectiveness at apprehending violent federal fugitives. First, not all
districts assigned violent federal fugitive investigations to the task forces;
second, the USMS did not fully shift its focus from apprehending all
federal fugitives to apprehending violent fugitives; and third, most USMS
districts did not enter data regarding their state fugitives in WIN when
the investigations were opened so that the USMS could more effectively
focus its resources on apprehending violent fugitives. We believe that by
addressing these three factors, which we discuss in more detail below,
the USMS could further improve the overall effectiveness of its fugitive
apprehension program and help achieve the Department’s strategic
objective of reducing the number of violent fugitives at large.

       Not All Districts Assigned Violent Federal Fugitive Investigations to
Task Forces. We found that many districts did not assign violent federal
fugitive investigations to the RTFs and other USMS task forces that operated
in their districts. Moreover, the USMS had no written guidelines on whether
the RTFs, other task forces, or the districts’ warrant squads should
investigate violent federal fugitives. As a result, some Marshals did not
assign violent federal fugitive investigations to task forces operating in their
districts. Of the 88 districts that responded to our survey, 77 reported that
they had RTFs or other task forces operating in their district. But of those
77 districts, 21 – including 7 RTF districts – reported that they assigned
25 percent or less of their violent federal fugitive investigations to the task
forces. Overall, 33 of the 77 districts reported that they assigned 50 percent
or less of their violent federal fugitive investigations to the task forces.

      Some Marshals we interviewed stated that they were reluctant to
assign their violent federal fugitive investigations to the RTFs because the
Marshals did not have supervisory authority over the RTFs. Other Marshals

U.S. Department of Justice                                                  iv
Office of the Inspector General
Evaluation and Inspections Division
                                       DRAFT


stated that they retained the more complex violent fugitive investigations to
develop the investigative capability of district Deputy Marshals. Other
Marshals stated that they were concerned that assigning all violent federal
fugitive investigations to the task forces could undermine the morale of
Deputy Marshals assigned to the district.

       Focus Not Fully Shifted to Violent Fugitive Investigations. We found
that the USMS had not fully shifted its focus to apprehending violent
fugitives as directed by the Presidential Threat Protection Act of 2000 and
Department policy. We also found that the USMS had not established any
performance goals related to the apprehension of violent fugitives. Instead,
the USMS continued to track and report on its apprehensions of all federal
fugitives.

       The USMS was, to some extent, limited in its ability to shift its
focus to apprehending violent fugitives because it is required to pursue
all fugitives for whom it is responsible, whether or not they are known or
suspected to be violent. Our analysis showed that 80 percent of USMS
fugitive investigations in FY 2004 involved fugitives not known to be
violent. Consequently, the “due diligence” requirement to pursue all
fugitives limits the USMS’s ability to fully shift its efforts to apprehend
those who are violent. 7

       We also found that the RTFs did not limit the state fugitive
investigations they accepted to only violent fugitives. To encourage the
participation of state and local law enforcement agencies, the USMS
accepted state fugitive investigations that did not involve violent fugitives.
As a result, in FY 2004, 69 percent of the state fugitives apprehended in
the RTF districts were not considered violent.

      State Fugitive Investigations Not Entered in WIN. We found that not
all USMS districts entered state fugitive investigations in WIN when they
accepted them. In response to our survey, 52 of the 88 districts that
responded reported that they did not do so. Because some districts did not
record all state fugitive investigations in WIN until the investigations were
closed, if at all, the USMS could not ensure its efforts were sufficiently
focused on violent fugitives. In addition, it could not fully assess its
progress at apprehending violent fugitives or assess the impact of accepting



        7 “Due diligence” requirements are designed to ensure that a prosecution may

proceed under the federal Speedy Trial Act. Under 18 U.S.C. §3161 (h)(3)(B) the
government must be able to demonstrate that a defendant’s whereabouts were unknown
either because the defendant was avoiding apprehension or because the defendant’s
whereabouts could not be determined after due diligence.

U.S. Department of Justice                                                       v
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


investigations not classified as violent on the performance of its fugitive
apprehension program.


CONCLUSIONS AND RECOMMENDATIONS

       The improvement achieved by the USMS fugitive apprehension
program – a 51-percent increase in apprehensions over a 4-year period –
represents a significant contribution to the Department’s efforts to
reduce crime and improve public safety. However, because the number
of violent federal fugitives at large has continued to increase, further
improvements are needed.

       We identified several areas in which the USMS can improve its
apprehension of violent federal fugitives in order to reduce the number of
violent federal fugitives at large. Some Marshals failed to assign violent
federal fugitive investigations to the RTFs and other task forces. Because
the RTFs were more effective and efficient, assigning violent fugitive
investigations to them could improve the USMS’s apprehension effort.
Further, the assignment of investigations involving fugitives not classified
as violent to the RTFs and other task forces hindered the effectiveness of
the USMS’s efforts to focus those resources on apprehending violent
fugitives. Limiting the number of investigations involving fugitives not
classified as violent that the RTFs and other task forces undertake would
enable them to better focus on violent fugitives, as directed in the
Presidential Threat Protection Act of 2000 and Department policy. Also,
the failure of districts to enter information in WIN when state fugitive
investigations are opened by the USMS prevented the USMS from
effectively focusing on violent state and federal fugitives. By entering
data on state fugitive investigations when the investigations are opened,
the USMS can better ensure its efforts are sufficiently focused on violent
fugitives and fully assess its progress at apprehending violent fugitives at
large.

      The Department’s October 2004 Fugitive Apprehension Report
proposed the creation of six additional RTFs. Our analysis of the fugitive
apprehension data indicates that the six new RTFs can be expected to
apprehend more violent fugitives, and we believe the creation of new
RTFs is warranted.

      Therefore, to further improve the USMS’s effectiveness in
apprehending violent fugitives and to reduce the number of violent
federal fugitives at large, we recommend that the USMS:



U.S. Department of Justice                                                    vi
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


       1. Establish goals and measures to track the USMS’s performance
          in apprehending violent fugitives and its progress in reducing
          the number of violent fugitives at large.

       2. Require districts to enter state fugitive investigations in WIN
          when the investigations are opened by the USMS.

       3. Establish criteria for districts to ensure that violent federal
          fugitive investigations are assigned to the RTFs and other task
          forces.

       4. Analyze WIN data to ensure that the districts appropriately
          focus on violent federal and state fugitive investigations.

       5. Consider creating the six RTFs proposed in the Department’s
          October 2004 Fugitive Apprehension Report.




U.S. Department of Justice                                                  vii
Office of the Inspector General
Evaluation and Inspections Division
                                              DRAFT


                                 TABLE OF CONTENTS



EXECUTIVE DIGEST .................................................................................. i

BACKGROUND .......................................................................................... 1

PURPOSE, SCOPE, AND METHODOLOGY .............................................. 10

RESULTS OF THE REVIEW..................................................................... 12

        Apprehension of Violent Fugitives................................................... 12

        Factors That Limited Violent Fugitive Apprehensions...................... 17

CONCLUSION AND RECOMMENDATIONS .............................................. 28

APPENDIX I: Methodology...................................................................... 30

APPENDIX II: District Questionnaire ..................................................... 37

APPENDIX III: USMS’s Response to Draft Report.................................. 45

APPENDIX IV: OIG Analysis of USMS’s Response.................................. 48




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                         DRAFT


                                   BACKGROUND


      The United States Marshals Service (USMS) has several important
mission, including protecting the federal judiciary; housing and transporting
federal prisoners in custody; and ensuring the security, health, and safety of
Government witnesses. 8 In addition, the USMS is the federal government’s
primary agency for apprehending fugitives. In carrying out this
responsibility, the USMS maintains a record of all federal arrest warrants
and has the authority to “investigate such [federal and state] fugitive
matters, both within and outside the United States, as directed by the
Attorney General.” 9

Fugitive Apprehension Policy
                                                            Fugitive: A fugitive is any
        The Attorney General’s 1988 Policy on        individual for whom a warrant
Fugitive Apprehension in Federal Bureau of           for arrest has been issued; who
                                                     has escaped from the custody
Investigation and Drug Enforcement                   of federal, state, or local law
Administration Cases states that the Federal         enforcement or correctional
Bureau of Investigation (FBI) and the Drug           authorities; for whom a
Enforcement Administration (DEA) shall have          warrant for arrest, or
apprehension responsibility for all arrest           equivalent document, has been
                                                     issued by a foreign
warrants resulting from their own                    government; or who has
investigations. However, the DEA may                 escaped from the custody of
delegate apprehension authority to the USMS          foreign law enforcement or
if it does not apprehend the fugitive within 7       correctional authorities, and
days of the issuance of an arrest warrant. The       for whom the United States has
                                                     received a request for
FBI does not routinely transfer fugitive             assistance in locating or
investigations to the USMS. As noted in the          apprehending.
U.S. Department of Justice’s (Department)
October 2004 Fugitive Apprehension Report,           Source: U.S. Department of Justice
                                                     Fugitive Apprehension Report,
the USMS is currently reviewing the 1988             October 19, 2004.
policy in light of the transfer of the Bureau of
Alcohol, Tobacco, Firearms and Explosives
(ATF) to the Department in January 2003. 10 Like the FBI, the ATF currently
does not routinely delegate fugitive investigations to the USMS.

       8 Recent Office of Inspector General reviews in these areas include Review of the
United States Marshals Service Judicial Security Process, I-2004-012 (March 2004), and
Administration of the Witness Security Program (March 2005).

       9   28 U.S.C. § 566(a).

       10 The revised fugitive apprehension policy for the Department is currently in draft

form. In addition, the USMS and the ATF are working on a draft Memorandum of
Understanding concerning the referral of ATF fugitives to the USMS.

U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
                                        DRAFT


      Although the Attorney General’s 1988 policy does not apply to law
enforcement agencies in other federal departments, the USMS has
Memorandums of Understanding (MOU) with a number of agencies to
assume apprehension responsibility for their fugitives. The USMS currently
has MOUs with the Social Security Administration, the Internal Revenue
Service, the Department of State’s Bureau of Diplomatic Security, the
Department of Housing and Urban Development’s Office of Inspector
General (OIG), the Department of Veterans Affairs’ OIG, the Department of
Education’s OIG, the Department of Agriculture’s OIG, and the Department
of Homeland Security’s Federal Emergency Management Agency, among
others.

       In addition, the USMS has MOUs with state and local law
enforcement agencies to assist in apprehending their fugitives. This
authority to investigate non-federal fugitive felons derives from 28 U.S.C. §
566(e)(1)(B), which states that the USMS is authorized to “investigate such
fugitive matters, both within and outside the United States, as directed by
the Attorney General.” Since this authorization was passed in 1988, the
Attorney General has repeatedly authorized the USMS to participate with
state and local law enforcement authorities in the investigation, pursuit,
and arrest of fugitives wanted on state as well as federal charges.

Types of Fugitives

       Federal fugitives are categorized based on whether they are wanted for
a felony or non-felony (misdemeanor and some bench warrants) and
whether the USMS has primary apprehension responsibility. 11 The USMS
designates violent fugitives as those on its 15 Most Wanted list, Major Case
list, and fugitives whose underlying or current offense is homicide,
kidnapping, assault, aggravated assault, robbery, arson, an “over-the-wall”
escape, or involves weapons or explosives as violent fugitives.

       The USMS established the 15 Most Wanted fugitive program in 1983
to prioritize investigations of the country’s most violent federal and state
fugitives. These fugitives tend to be career criminals with histories of
violence or whose current offenses pose a significant threat to public safety.
Current and past fugitives in this program include murderers, sex offenders,
drug kingpins, organized crime figures, and individuals wanted for high-
profile financial crimes. The USMS established its Major Case fugitive
program in 1985 to broaden the 15 Most Wanted fugitive program. Much
like the 15 Most Wanted fugitive program, the Major Case fugitive program
prioritizes the investigation of the country’s most dangerous federal and

       11 18 U.S.C. § 3156 (3) (3) defines “felony” as an offense punishable by a maximum

term of imprisonment of more than 1 year.

U.S. Department of Justice                                                          2
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


state fugitives. Individuals who escape from custody are automatically
elevated to Major Case status. There are approximately 300 Major Case
investigations at any given time.

Types of Investigations

       Deputy Marshals execute warrants and apprehend federal and state
fugitives in the 94 federal judicial districts. The amount of time that Deputy
Marshals spend on fugitive investigations depends on a number of factors,
including the number of fugitive investigations assigned to them, additional
district responsibilities beyond fugitive investigations, and the type of
investigative entity they are assigned to in the district. The four types of
investigative entities are:

      Individual Investigators. Each district usually has a number of
Deputy Marshals assigned to conduct fugitive investigations. These Deputy
Marshals have certain fugitives for whom they are responsible for
investigating and must balance these investigations with other duties – such
as court security and transporting prisoners. The individual Deputy
Marshals do not work routinely with state and local law enforcement or
other federal agencies.

       Deputy Marshals working individually operate within a single district.
If a fugitive under investigation leaves the district, the Deputy Marshal
transfers responsibility for the fugitive investigation to another district by
sending a collateral lead to the district to which the fugitive fled. A
collateral lead is sent electronically through the USMS’s Warrant
Information Network (WIN), by facsimile, or by telephone. The lead provides
background information on the fugitive, summarizes the investigation, and
specifies how quickly the responding district must act. The district that
initiated the collateral lead can request that the receiving district act on the
lead immediately, within 48 hours, within 5 days, or within 10 days
depending on the urgency of the investigation.

       District Warrant Squads. Warrant squads are teams of district
Deputy Marshals that conduct fugitive investigations within a district.
Deputy Marshals assigned to warrant squads usually have additional
district responsibilities, but fugitive investigations are their primary
responsibility. Warrant squads work within a district and do not routinely
work with state and local law enforcement or other federal agencies.

      District Fugitive Task Forces. A district fugitive task force includes
law enforcement personnel from other federal agencies, as well as deputized



U.S. Department of Justice                                                 3
Office of the Inspector General
Evaluation and Inspections Division
                                        DRAFT


state and local law enforcement personnel. 12 Like a district warrant squad,
a district fugitive task force operates within the boundaries of the district.
Deputy Marshals are assigned to district fugitive task forces on a rotating
basis and have minimal district responsibilities other than fugitive
investigations.

       Regional Fugitive Task Forces. The Presidential Threat Protection Act
of 2000 directed the Attorney General to create permanent Regional Fugitive
Task Forces (RTF) consisting of federal, state, and local law enforcement
personnel to apprehend the most dangerous fugitives. This Act provided the
following language:

       Sec. 6. FUGITIVE APPREHENSION TASK FORCES
       (b) AUTHORIZATION OF APPROPRIATIONS – There are authorized to
       be appropriated to the Attorney General for the United States
       Marshals Service to carry out the provisions of this section
       $30,000,000 for fiscal year 2001, $5,000,000 for fiscal year 2002, and
       $5,000,000 for fiscal year 2003.

   Although the Act authorized funding for FY 2001, there was no funding
appropriated. However, in FY 2002, Congress appropriated $5,825,000 for
the “establishment of dedicated fugitive task forces on both coasts as
proposed by the Senate.” In FY 2003, Congress appropriated $2,916,000 to
“establish two additional centrally-managed fugitive task forces in the
heartland.” The FY 2004 Conference language included an ear-mark of
$11,476,000 for “all costs related to the regional fugitive task forces located
in New York City, Los Angeles, Chicago, and Atlanta.” Also included in this
amount was $2 million for the “establishment of a new regional task force in
the District of Columbia metropolitan area and $300,000 shall be for a task
force in Billings, Montana.” The five RTFs that are currently established are
described below:

   1. The New York/New Jersey RTF became operational in May 2002
      and covers the Southern and Eastern districts of New York and the
      district of New Jersey.

   2. The Pacific Southwest RTF became operational in July 2002 and
      covers the Central and Southern districts of California.

   3. The Great Lakes RTF became operational in July 2003 and covers
      the Northern, Central, and Southern districts of Illinois; the Northern
      district of Indiana; and the Eastern district of Wisconsin.

       12 The Department’s October 2004 Fugitive Apprehension Report stated that there

were 83 district fugitive task forces.

U.S. Department of Justice                                                         4
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT



   4. The Southeast RTF became operational in September 2003 and
      covers the Northern and Middle districts of Georgia.

   5. The Capital Area RTF became operational in 2004 and covers the
      District of Columbia’s District Court and Superior Court, the district
      of Maryland, and the Eastern district of Virginia.

       Like district fugitive task forces, RTFs include law enforcement
personnel from other federal agencies, as well as deputized state and local
law enforcement personnel. In contrast to district fugitive task forces that
operate exclusively within a district, each RTF operates in two or more
districts. The Deputy Marshals and other federal, state, and local law
enforcement personnel serving on the RTFs can cross district boundaries
during an investigation. The management of the RTFs also differs from that
of district task forces and warrant squads. While individual U.S. Marshals
supervise warrant squads and district task forces in their districts, the
Investigative Services Division in USMS headquarters oversees the five
RTFs.

       Each RTF maintains an office in each of the districts in which it
operates. Supervisory Inspectors from the Investigative Services Division
direct the administrative and operational functions of the RTF; maintain
communication among the RTF offices, the district offices, and
headquarters; and supervise the RTF staff, including Deputy Marshals,
federal and deputized state and local law enforcement personnel, and
analysts. A limited number of Investigative Services Division Inspectors
assigned to RTFs also conduct fugitive investigations. The majority of USMS
personnel assigned to RTFs are Deputy Marshals who participate on the
RTF either full or part time on a rotational basis. Once assigned to the RTF,
these Deputy Marshals continue to work on their existing district fugitive
investigations as well as any new investigations assigned to them through
the RTF, but they are usually not assigned additional investigations directly
by their district.

      In the October 2004 Fugitive Apprehension Report, the Department
proposed the creation of six additional RTFs based on the prevalence of
criminal activity in specific areas of the country. They are:

   1. Southwest RTF – based in Houston, Texas, and covering eight
      districts in Texas, New Mexico, and Oklahoma;

   2. Florida/Caribbean RTF – based in Miami, Florida, and covering five
      districts in Florida, Puerto Rico, and the U.S. Virgin Islands;


U.S. Department of Justice                                               5
Office of the Inspector General
Evaluation and Inspections Division
                                          DRAFT


   3. Carolinas RTF – based in Charlotte, North Carolina, and covering
      four districts in North Carolina and South Carolina;

   4. West Central RTF – based in St. Louis, Missouri, and covering 13
      districts in Missouri, Arkansas, Colorado, Iowa, Kansas, Nebraska,
      North Dakota, South Dakota, Utah, and Wyoming;

   5. Northern Pacific RTF – based in San Francisco, California, and
      covering eight districts in California, Guam, Idaho, Hawaii, Oregon,
      and Washington; and

   6. New England RTF – based in Boston, Massachusetts, and covering
      five districts in Massachusetts, Maine, New Hampshire, Rhode Island,
      and Connecticut.

Headquarters’ Support for Fugitive Investigations

       The USMS’s Investigative Services Division provides investigative and
administrative support for fugitive investigations and oversees the five RTFs.
It also designates which fugitive investigations are 15 Most Wanted Cases or
Major Cases. The Investigative Services Division includes the Analytical
Support Unit and the Technical Operations Group, which provide analytic
and tactical support for fugitive investigations.

       The Analytical Support Unit maintains WIN, which is the USMS's
central law enforcement information system. Through WIN, users are able
to enter, collate, and retrieve fugitive and warrant information, including
photographs. Users manage investigative information; access the National
Crime Information Center; suspend, close, and delete warrant records;
assign investigations to staff; share fugitive investigation information among
districts, including collateral leads; and generate reports. 13 The Analytical
Support Unit distributes WIN data in a monthly report, informing districts
of their number of federal warrants and rate of clearance. Using the report,
districts can determine where they rank compared to other districts in the
apprehension of fugitives, and USMS headquarters can monitor the
districts’ performance.

      The WIN data used for the analysis in this report is a subset of
selected variables from the WIN system and is structured so that each
record represents one warrant and contains information such as type of

        13 The National Crime Information Center, maintained by the FBI, is a

computerized index of criminal justice information, such as criminal records and
information on fugitives, stolen properties, and missing persons, and is available to federal,
state, and local law enforcement and other criminal justice agencies.

U.S. Department of Justice                                                              6
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


warrant, underlying criminal offense, current offense, the agency that
initiated the warrant, court records, and related internal correspondence. A
single fugitive may have multiple warrants, each of which is represented in
a separate record in this dataset.

       The Technical Operations Group includes the Electronic Surveillance
Unit, which provides covert investigative and intelligence support to fugitive
apprehension and other investigative efforts, such as telephone monitoring,
electronic tracking, and audio-video recording. Electronic Surveillance Unit
personnel prepare court orders, serve as expert witnesses, and train law
enforcement officers in the use of electronic surveillance.

       The Management and Budget Division supports the USMS fugitive
apprehension program by providing personnel support to districts. District
personnel report their duty hours, including those hours dedicated to
fugitive investigations, to the Management and Budget Division through the
standard USM-7 form. The Management and Budget Division uses the
information to assign the districts personnel, including administrative
personnel and Deputy Marshals.

Performance Measures for Fugitive Apprehension

      The USMS measures its performance in terms of the number of
federal fugitives apprehended or cleared. Apprehensions include:

       •   Physical arrest – The USMS is the lead agency in the
           apprehension and Deputy Marshals arrest the fugitive.

       •   Directed arrest – A USMS investigation provides enough
           information to allow another law enforcement agency to make an
           arrest in a location that is not easily accessible to USMS personnel.

       •   Surrender – Fugitives turn themselves in to the USMS or other
           authorities.

Clearances include:

       •   Arrest by other agencies – A physical arrest, directed arrest, or
           surrender that results from an investigation by an agency other
           than the USMS.

       •   Lodged detainer – When a fugitive is imprisoned by a law
           enforcement agency other than the USMS, the USMS advises
           prison officials that the prisoner is wanted on other charges and


U.S. Department of Justice                                                 7
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


           requests continued detention of the prisoner or notification of the
           prisoner's impending release.

       •   Dismissal – A federal magistrate or judge dismisses the warrant.

       •   Return of the warrant to the original agency – The DEA or the
           FBI requests that the warrant be returned.

       •   Purging of the warrant – The warrant is removed from WIN
           because the USMS believes that any further action on the warrant
           would be “impossible or unreasonable.” For example, if the fugitive
           is believed to be dead, then the warrant is purged.

      According to the Department’s FY 2004 Performance and
Accountability Report (Performance Report), the USMS’s target was to
apprehend or clear 49 percent (86,652) of all federal fugitives in FY 2004.
The actual number of federal fugitives apprehended or cleared was 79,740,
or 47 percent of the year’s total. The Performance Report noted that the
number of state and local fugitives apprehended or cleared by the USMS
increased by 26 percent from FY 2003 to FY 2004, making it difficult for the
USMS to keep pace with a growing federal fugitive workload. The USMS
attributed the increased workload of state and local fugitives to
investigations conducted by the RTFs and other USMS-led fugitive task
forces. Chart 1 shows the projected and actual number of federal fugitives
apprehended or cleared from FY 2001 through FY 2004.




U.S. Department of Justice                                                 8
Office of the Inspector General
Evaluation and Inspections Division
                                         DRAFT


     Chart 1: Number of Federal Fugitives Apprehended or Cleared
           Department-wide from FY 2001 through FY 2004


                                                                                  86,652
   FY 2004
                                                                            79,740

                                                                         78,260
   FY 2003
                                                                            81,652

                                                                   70,901
   FY 2002
                                                                     73,097


   FY 2001
                                                                   71,368

                                            Actual   Projected
 Source: FY 2002 – FY 2004 Department Performance and Accountability Reports

 Note: In FY 2002, the USMS changed its performance measure from warrants
 apprehended or cleared to fugitives apprehended or cleared. For this reason, the
 projected target of fugitives apprehended or cleared for FY 2001 is not available.




U.S. Department of Justice                                                                 9
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT


                   PURPOSE, SCOPE, AND METHODOLOGY


Purpose and Scope

      The OIG initiated this review to evaluate the performance of the USMS
in apprehending violent federal and state fugitives from FY 2001 to
FY 2004. 14 Although the ATF, the DEA, and the FBI conduct fugitive
investigations, this review is limited to the USMS’s efforts. Our review
focused specifically on violent federal and state fugitives because locating
and apprehending the most violent fugitives is the main priority of the
USMS’s fugitive apprehension program. 15

Methodology

       The following is a summary of the methodology used to examine the
performance of the USMS in apprehending violent federal and state
fugitives. A detailed methodology is included in Appendix I.

       We examined the performance of Deputy Marshals working
individually or as members of warrant squads, district fugitive task forces,
or RTFs in apprehending federal and state violent fugitives from FY 2001 to
FY 2004, as well as the reasons for any differences in performance. We also
surveyed each of the 94 USMS district offices on a range of topics pertaining
to their fugitive apprehension activities. We received responses from 88 of
the 94 (94 percent) districts. The questionnaire is included in Appendix II.

       To examine the different approaches to fugitive apprehension, we
visited 12 of the 15 districts that are part of the 5 RTFs, as well as 5 non-
RTF districts. We interviewed Marshals, Chief Deputy Marshals, warrant
squad supervisors, Task Force Supervisory Inspectors, Inspectors, Deputy
Marshals involved with the Electronic Surveillance Unit, Deputy Marshals
who investigate fugitives, WIN data administrators, and representatives from
other federal, state, and local agencies who worked with the districts and
RTFs to investigate and apprehend fugitives. We also conducted interviews
with USMS headquarters personnel.



        14 Previous OIG reviews of the USMS fugitive apprehension program are Follow-up

Inspection of the United States Marshals Service’s Fugitive Apprehension Program, I-2000-02
(January 2000) and Inspection of the Fugitive Apprehension Program in the United States
Marshals Service, I-94-04 (September 1995).

       15   U.S. Department of Justice Fiscal Years 2003-2008 Strategic Plan, p. 2.97.

U.S. Department of Justice                                                               10
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


      To compute the number of apprehensions per staff year, we reviewed
USMS headquarters and district personnel time and attendance data on
hours spent investigating fugitives. These hours included time for
administrative staff as well as Deputy Marshals. We requested data from
the USM-7 database for all time spent by USMS staff investigating fugitives
for FY 2001 to FY 2004; however, the USMS could provide data only from
FY 2002 to FY 2004. We calculated staff years by dividing the number of
hours worked in a district or grouping of districts by 2,087 hours (the Office
of Personnel Management equivalent of one “full time equivalent” work
year). To compute the number of apprehensions per staff year, we divided
the number of clearances or apprehensions of fugitives by the staff years
applied to fugitive investigations. We also analyzed data from two separate
databases:

      The Electronic Surveillance Unit database. We analyzed this database
and examined the number of fugitive investigations in which Electronic
Surveillance Unit personnel assisted, as well as the number of arrests that
resulted from this assistance.

      The Warrant Information Network (WIN). Our analysis of WIN
consisted of two parts – the number of fugitives apprehended and the
number remaining at large. We examined warrants in WIN received before
October 1, 2004, and cleared between September 30, 2000, and October 1,
2004. In our analysis, one warrant equaled one fugitive, even if a fugitive
had multiple warrants in the system.

       Although WIN contained a field that captured whether a district task
force or RTF apprehended a fugitive, we learned that USMS personnel did
not consistently enter data in this field when a task force was involved.
Therefore, we analyzed RTF performance based on the districts that
constituted the RTFs as a whole (for example, the Pacific Southwest RTF
comprises the Southern and Central districts of California). Any analysis
regarding fugitives cleared or apprehended is based on the performance of
the districts participating in the RTFs because we could not analyze
individual RTFs’ performance separately from that of the districts in which
they operated.




U.S. Department of Justice                                               11
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT


                           RESULTS OF THE REVIEW


Apprehension of Violent Fugitives

       The USMS’s performance in apprehending violent fugitives
       improved significantly from FY 2001 to FY 2004. 16 The
       number of violent fugitives apprehended by the USMS
       increased by 51 percent during this period, and the
       number of violent fugitives apprehended per staff year
       increased from 18 in FY 2002 to 21 fugitives in FY 2004.
       The two most significant factors explaining these
       improvements were that the USMS increased staff time
       dedicated to fugitive investigations and created five RTFs,
       which we found were effective in increasing violent
       fugitive apprehensions.

      As shown in Chart 2, from FY 2001 to FY 2004 the USMS increased
the number of violent fugitives apprehended from 14,348 to 21,600, a
51-percent improvement.

      Chart 2: Violent Fugitive Apprehensions, FY 2001 to FY 2004

  25,000
                                                                                21,600
  20,000                                                   17,505
                                      15,627
                 14,348
  15,000

  10,000

   5,000

       0
                 FY 2001              FY 2002             FY 2003              FY 2004

Source: USMS WIN Database

      We also found that the USMS became more efficient in apprehending
violent fugitives. The number of violent fugitives apprehended per staff year
increased from 18 violent fugitives in FY 2002 to 21 violent fugitives in

        16 The term “violent fugitives” includes both violent federal fugitives and violent

state fugitives. We defined “fugitives apprehended” as those arrested by the USMS,
arrested by another agency at the direction of the USMS, or who surrendered.

U.S. Department of Justice                                                                12
Office of the Inspector General
Evaluation and Inspections Division
                                                                DRAFT


FY 2004. 17 We examined how the USMS achieved these improvements. We
determined that the USMS achieved the increases because the USMS
increased the staff time dedicated to fugitive investigations by 21 percent.
In addition, the USMS improved its effectiveness at apprehending fugitives
by creating 5 RTFs encompassing 15 districts.

Staff Time Dedicated to Fugitive Investigations Increased

      From FY 2002 to FY 2004, the USMS increased the amount of time
that Deputy Marshals and other personnel devoted to fugitive investigations
by 21 percent, from 911 staff years to 1,104 staff years (Chart 3).

                        Chart 3: Amount of Time Spent on Fugitive Investigations
                                  (in Staff Years), FY 2002 to FY 2004

                1400
                                                                                                                 1,104
                1200
                                        911                                 953
                1000                                                                                             177
  Staff Years




                                                                                                                                 56
                 800                                                         210            38
                                        221
                                                           23
                 600                                                                                             655
                 400                    485                                  514
                 200
                                        182                                  190                                 216
                   0
                                       FY 2002                            FY 2003                             FY 2004

                       RTF districts   Non-RTF districts    Overhead and administrative support   Electronic Surveillance Unit



Source: USMS Management and Budget Division

Note: The USMS could not provide data for FY 2001.

      The additional staff years dedicated to fugitive investigations included
the time of both new and existing USMS staff. From FY 2002 to FY 2004,
the total number of Deputy Marshals assigned to the districts, the RTFs,
and the Electronic Surveillance Unit increased by 13 percent (Table 1).

           Most recently, the USMS used its RTFs and district task forces to coordinate
                17

Operation FALCON (Federal and Local Cops Organized Nationally). Operation FALCON
involved over 900 federal, state, and local law enforcement agencies, and resulted in the
arrest of 10,340 fugitives from April 4 through 10, 2005. The USMS focused Operation
FALCON’s efforts on apprehending fugitives wanted for gang-related crimes, homicide,
crimes involving use of a weapon, crimes against children and the elderly, crimes involving
sexual assaults, and other crimes of violence.

U.S. Department of Justice                                                                                               13
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT


       Table 1: Increases in USMS Personnel, FY 2002 to FY 2004
                                 FY 2002      FY 2003     FY 2004
 Deputy Marshals assigned to
                                                  2,392             2,750                    2,688
 USMS districts
 Investigative Services Division
                                                     20                 24                     31
 employees assigned to the RTFs
 Employees assigned to the
                                                     31                 36                     47
 Electronic Surveillance Unit
Source: USMS Management and Budget Division and Investigative Services Division

      Some of the increased resources were directed to USMS units that
provide support to fugitive investigations. For example, the number of
Deputy Marshals and other staff in the Electronic Surveillance Unit, which
provides investigative and intelligence support for fugitive investigations,
increased by 52 percent (from 31 to 47) from FY 2002 to FY 2004. With the
increase in staff, the Electronic Surveillance Unit assisted in 81 percent
more fugitive investigations from FY 2001 to FY 2004, which resulted in a
111-percent increase in apprehensions (Chart 4). The unit’s personnel also
said that the increase in staffing enabled them to give state and local law
enforcement personnel greater access to the USMS’s electronic surveillance
capability. However, the Electronic Surveillance Unit database did not
distinguish between federal and state fugitive investigations before
October 2004. This has since been corrected.

         Chart 4: Electronic Surveillance Unit Investigations and
                   Apprehensions, FY 2001 to FY 2004

       2,500

       2,000                                                                 1,965
                                                                                     1,529
       1,500
                                 1,265                  1,142
                1,084                      988
       1,000                                                      926
                        723
         500

          0
                  FY 2001             FY 2002             FY 2003             FY 2004

                                 Investigations   Apprehensions

Source: USMS Electronic Surveillance Unit

       The increase in personnel also allowed the USMS to generate and
respond to a growing number of collateral leads. Collateral leads are
district-to-district requests for fugitive investigation assistance that take

U.S. Department of Justice                                                                           14
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


priority over other USMS fugitive apprehension responsibilities. From
FY 2003 to FY 2004, the number of collateral leads received by the districts
increased by 61 percent, from 4,372 to 7,028 leads.

Five RTFs Created

       We concluded that the establishment of the five RTFs also contributed
to the increase in violent apprehensions because they provided a more
effective approach to apprehending violent fugitives. The Assistant Director
of the Investigative Services Division, the Marshals, and the Deputy
Marshals we interviewed stated that the RTFs were the primary reason for
the increased number of violent fugitive apprehensions. The effectiveness of
the RTF was also cited by representatives from other federal agencies we
interviewed, who stated that they often brought their agencies’ fugitive
investigations to the RTFs. In RTFs, Deputy Marshals are able to work more
closely with state and local law enforcement partners who are familiar with
the local jurisdictions and informants in the geographic area covered by the
RTF. The Deputy Marshals’ authority to cross district, state, and local
boundaries to pursue fugitives also improved the RTF partners’ ability to
apprehend violent fugitives.

      The state and local task force members we interviewed stated that
working with the USMS task forces increased their effectiveness in
apprehending violent fugitives. State and local members of RTFs cited
several benefits, including:

       •   Greater electronic and financial surveillance capability;
       •   Access to federal law enforcement databases, such as those
           maintained by the Social Security Administration, the Department
           of Homeland Security’s Bureau of Immigration and Customs
           Enforcement, and the Department of Housing and Urban
           Development;
       •   Expert Deputy Marshals dedicated to fugitive apprehension;
       •   Access to law enforcement officers familiar with the local
           jurisdictions and informants;
       •   More resources, such as overtime pay, vehicles, cellular phones,
           and equipment;
       •   One geographic location for the various law enforcement agencies
           to meet and share information;
       •   The ability to request USMS assistance across state or local
           boundaries; and
       •   Training opportunities and technical assistance.
U.S. Department of Justice                                                15
Office of the Inspector General
Evaluation and Inspections Division
                                                                 DRAFT


       Our analysis of WIN supports the conclusion that the RTFs were a
significant reason for the increase in the number of violent fugitives
apprehended. When we compared the number of violent fugitives
apprehended in RTF districts to the number apprehended in non-RTF
districts, we found that violent fugitive apprehensions increased by
67 percent in the RTF districts, compared to a 45-percent increase in non-
RTF districts from FY 2001 to FY 2004 (Chart 5).

 Chart 5: Increase in Violent Fugitive Apprehensions in RTF Districts
             and Non-RTF Districts, FY 2001 to FY 2004
                                   7000                                                                         18000



                                                                                                                16000
                                   6000


                                                                                                                14000

                                   5000
                                                                                                                12000




                                                                                                                        Apprehensions in non-RTF districts
  Apprehensions in RTF districts




                                   4000
                                                                                                                10000



                                                                                                                8000
                                   3000
                                                                  RTF districts – 67-percent increase
                                                                  Non-RTF districts – 45-percent increase       6000
                                   2000

                                                                                                                4000


                                   1000
                                                                                                                2000



                                      0                                                                         0
                                          FY 2001   FY 2002                         FY 2003           FY 2004

                                                          RTF districts   Non-RTF districts


Source: USMS WIN database

       We also found that the RTF districts became more efficient over time
in apprehending violent fugitives and apprehended more violent fugitives per
staff year than non-RTF districts. In the RTF districts, the number of
violent fugitives apprehended increased from 17 to 22 violent fugitives per
staff year from FY 2002 to FY 2004, while the non-RTF districts
apprehended 18 violent fugitives per staff year in FY 2002 and 20 per staff
year in FY 2004 (Table 2).

  Table 2: Violent Fugitive Apprehensions per Staff Year in RTF and
                Non-RTF Districts, FY 2002 to FY 2004
  Districts                      FY 2002      FY 2003      FY 2004
  Non-RTF Districts                 18           20           20
  RTF Districts                     17           18           22
 Source: WIN database and USMS Management and Budget Division




U.S. Department of Justice                                                                                             16
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT


Factors That Limited Violent Fugitive Apprehensions

       Despite the increase in violent fugitive apprehensions, the
       number of violent federal fugitives at large increased.
       Specifically, from FY 2001 through FY 2004, the number
       of violent federal fugitives at large increased by 3 percent,
       to 14,419 fugitives. Several factors beyond the control of
       the USMS contributed to the increase in the number of
       violent federal fugitives at large. However, we identified
       three factors that were within the USMS’s control that
       contributed to the increase.         First, not all districts
       assigned violent federal fugitive investigations to the task
       forces and RTFs; second, the USMS did not fully shift its
       focus from apprehending all federal fugitives to
       apprehending violent federal and state fugitives; and
       third, most districts did not enter data on their state
       fugitive investigations in WIN when the investigations
       were opened so that they could focus on apprehending
       violent fugitives.

       Although the USMS increased the number of violent fugitives it
apprehended from FY 2001 to FY 2004, the number of violent federal
fugitives at large increased by 3 percent during the same period, from
14,046 to 14,419 (Chart 6).

              Chart 6: Number of Violent Federal Fugitives at Large,
                              FY 2001 to FY 2004

     16,000                                        14,699
                    14,046            14,387                   14,419
     14,000

     12,000
     10,000

      8,000
      6,000

      4,000

      2,000
         0
                   FY 2001            FY 2002      FY 2003    FY 2004

   Source: USMS WIN database




U.S. Department of Justice                                               17
Office of the Inspector General
Evaluation and Inspections Division
                                              DRAFT


      Several factors beyond the control of the USMS contributed to the
increase in the number of violent federal fugitives at large. 18 We found that
the USMS conducted more fugitive investigations on behalf of other federal
agencies, including investigations for the ATF and the Department of
Homeland Security’s Bureau of Immigration and Customs Enforcement.
From FY 2001 to FY 2004, the number of fugitive investigations that the
USMS conducted for other federal agencies increased by 62 percent, from
3,106 to 5,037. The increasing number of investigations resulted in
39 percent more apprehensions of felony fugitives for other federal agencies,
increasing from 4,836 in FY 2001 to 6,712 in FY 2004 (Chart 7).

          Chart 7: USMS Felony Fugitive Investigations and
     Apprehensions for Other Federal Agencies, FY 2001 to FY 2004
                                                                                  6,712
       7,000
       6,000                                                      5,910
                                          5,412
                        4,836                                             5,037
       5,000
       4,000                                             3,695
                3,106             3,422
       3,000
       2,000
       1,000
          0
                 FY 2001            FY 2002               FY 2003          FY 2004
                                Investigations    Apprehensions

Source: OIG District Survey and USMS WIN database

Note: The number of apprehensions is greater than the number of investigations because
apprehensions include individuals who surrendered to the USMS before investigations were
begun and because one investigation may result in multiple apprehensions.

       Some of the Deputy Marshals we spoke with identified other external
factors that may have contributed to the increased number of violent federal
fugitives at large. Several Deputy Marshals stated that an expansion in the
number of investigations that are pursued by United States Attorneys’
Offices resulted in more violent federal fugitives sought by the USMS. Two
Supervisory Inspectors suggested that the increased number of federal task
forces of all types had generated more federal fugitives. Examples of federal
task forces cited by the Supervisory Inspectors included the FBI’s Violent

        18 The number of state fugitives under investigation by the USMS and still at large

could not be determined because, as 52 districts reported in our district survey, districts
did not routinely enter state fugitive investigations in WIN when they opened the
investigations.

U.S. Department of Justice                                                                18
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


Crimes Task Forces, the ATF’s Project Safe Neighborhoods Task Forces, and
the DEA’s High Intensity Drug Trafficking Area Task Forces. Another
reason for the increased number of violent federal fugitives at large is that
the task forces investigated more state fugitives. Since the USMS has the
authority to investigate federal and state fugitives anywhere in the United
States and outside the country, state and local law enforcement agencies
had more incentive to request the USMS task forces’ assistance with their
violent fugitives. State and local district task force members whom we
interviewed stated that working with the USMS increased their effectiveness
in apprehending violent fugitives.

Factors Limiting the Apprehension of Violent Federal Fugitives

       Although we recognized that the increased number of federal fugitives
was not fully within the USMS’s control, we identified three factors within
the USMS’s control that also contributed to the increase and limited the
effectiveness of the USMS in apprehending violent fugitives. The factors
were that not all districts assigned violent federal fugitive investigations to
the RTFs and other task forces; the USMS did not ensure that the districts
and RTFs focused sufficiently on violent fugitive investigations; and not all
districts entered data regarding their state fugitives in WIN when the
investigations were opened. By not entering the data, the USMS could not
fully assess its progress at apprehending violent fugitives at large.

Not All Districts Assigned Violent Federal Fugitive Investigations to Task
Forces

       We found that many districts did not assign violent federal fugitive
investigations to the task forces that operated in their districts. In response
to our inquiries, the USMS told us that there were no written USMS
guidelines on whether the RTFs, other task forces, or the districts’ warrant
squads should investigate violent federal fugitives. In the absence of USMS
policy, Marshals can decide how to assign violent federal fugitive
investigations in their district. Some Marshals did not assign violent federal
fugitive investigations to task forces operating in their districts.

       Of the 88 districts that responded to our survey, 77 reported that they
had RTFs or other task forces operating in their districts. Of those
77 districts, 21 – including 7 RTF districts – reported that they assigned
25 percent or less of their violent federal fugitive investigations to the task
forces. Overall, 33 of the 77 districts reported that they assigned 50 percent
or less of their violent federal fugitive investigations to the task forces
(Chart 8).



U.S. Department of Justice                                                19
Office of the Inspector General
Evaluation and Inspections Division
                                                                      DRAFT


                                     Chart 8: Survey Responses on Assignment
                              of Violent Federal Fugitive Investigations to Task Forces
                         40
                         35
                         30
   Number of districts




                         25
                         20                                                                                               30

                         15          14
                         10
                                                                 10
                         5           7                                                       8                            6
                         0                                        2
                                    1-25%                      26-50%                    51-75%                    76-100%
                                          Percentage of violent federal fugitive investigations assigned to task forces
                                                               RTF districts    Non-RTF districts

 Source: OIG District Survey

       During our field visits, we interviewed the Marshals and other staff
from six of the seven RTF districts that assigned 25 percent or less of their
violent federal fugitive investigations to the RTFs. We asked them why they
did not assign more violent federal fugitive investigations to the RTFs. Three
of the Marshals told us that they did not assign investigations to the RTFs
because the districts did not control the RTFs. They believed that the RTF
Supervisory Inspectors should be accountable to the Marshals in the
districts that they served. Several other USMS personnel stated that a
district’s lack of control over an RTF could hurt the district’s reputation and
morale. For example, if Deputy Marshals or state and local personnel
assigned to the RTF violate USMS policy and procedures, such actions
would reflect poorly on the district. 19 Headquarters officials told us that
while the RTF Supervisory Inspectors report administratively to the USMS
headquarters Investigative Services Division, they also report operationally
to the affected district Marshals and Chiefs. However, we learned during
our interviews in the districts that some Marshals and Chiefs had the
perception that the RTF Supervisory Inspectors did not report to them
operationally.

      Three Marshals in other RTF districts stated that they did not assign
violent federal fugitive investigations to the RTFs because assigning these

        19 The RTFs are staffed with Investigative Services Division Deputy Marshals on a

full-time basis and with district Deputy Marshals who participate on a full-time or part-
time basis through rotations from their district assignments.

U.S. Department of Justice                                                                                                     20
Office of the Inspector General
Evaluation and Inspections Division
                                        DRAFT


potentially more complex investigations to the RTFs reduced the opportunity
for district Deputy Marshals to develop their investigative skills. One
Marshal suggested that all district Deputy Marshals serve a rotation period
on an RTF to work on the more complex investigations. Some district
Deputy Marshals told the OIG that the assignment of complex violent
federal fugitive investigations to the RTF created the perception that they,
the district Deputy Marshals, did not have the capability to conduct those
investigations. Some Marshals were concerned that this perception could
undermine the morale of the district Deputy Marshals.

       We found that some of the districts that did not assign their
investigations to the task forces were nonetheless assigning their Deputy
Marshals to the task forces, thereby reducing the number of Deputy
Marshals in the district available to conduct those violent federal fugitive
investigations that the district retained. Of the 88 USMS district offices that
responded to our survey, 17 districts indicated that the percentage of their
Deputy Marshals assigned to a task force was higher than the percentage of
their violent federal fugitive investigations assigned to those task forces
(Table 3).

Table 3: Comparison of the Assignment of Deputy Marshals and Violent
               Fugitive Investigations in 17 Districts
             Percentage of Deputy Marshals      Percentage of Violent Federal Fugitive
 District
            Assigned to Fugitive Task Forces     Investigations Assigned to Fugitive
                                                             Task Forces
    A                      100                                    90
    B                      100                                    50
    C                      100                                    37
    D                      100                                    25
    E                       63                                    40
    F                       63                                    40
    G                       61                                    55
    H                       57                                     8
    I                      53                                     25
    J                       52                                    20
    K                       50                                    19
    L                       38                                    20
    M                       38                                     0
    N                       33                                     0
    O                       31                                     0
    P                      27                                      2
    Q                       25                                    10
Source: OIG District Survey and Interviews

      We asked the Marshals or Chief Deputy Marshals in eight districts
that assigned a greater percentage of Deputy Marshals than investigations
to task forces why they did so. They stated that they accepted the reduction
in the number of Deputy Marshals available to work on their districts’
U.S. Department of Justice                                                       21
Office of the Inspector General
Evaluation and Inspections Division
                                        DRAFT


violent fugitive investigations because they wanted to help ensure the
success of the task forces. These Marshals and Chief Deputy Marshals said
that they assigned district Deputy Marshals to the task forces even though
the USMS did not have a policy requiring them to do so.

Focus Not Fully Shifted to Violent Fugitive Investigations

       We found another factor limiting the USMS’s effectiveness was that
the USMS had not adequately changed its focus to apprehending violent
fugitives as directed. The Presidential Threat Protection Act of 2000 (Act)
directed the creation of fugitive apprehension task forces and, subsequent
to passage of the Act, congressional conference reports reflected the
encouragement to the Department to focus on apprehending violent federal
and state fugitives. 20 In FY 2001, the Department’s FY 2001-2006 Strategic
Plan changed the focus of the USMS fugitive apprehension program from
apprehending all federal fugitives to apprehending violent fugitives, both
federal and state. 21 One measure of this change in policy was a 40-percent
increase in the number of USMS violent fugitive investigations resolved by
apprehension of the fugitive or administrative clearance of the warrant from
FY 2001 to FY 2004. 22 The number of other fugitives (fugitives not known to
be violent) apprehended or cleared increased by 29 percent in that same
period. In addition, the USMS significantly expanded its efforts to
apprehend violent state fugitives and increased the number of violent state
fugitives apprehended by 96 percent from 5,667 in FY 2001 to 11,130 in
FY 2004.

      However, we also found that the change in focus was limited. Overall,
the proportion of apprehensions that involved violent fugitives did not
change significantly over the 4-year period – from 32.3 percent in FY 2001
to 32.6 percent in FY 2004 (Chart 9). That indicated that although
resources had expanded, the USMS’s efforts had not been effectively
refocused from all federal fugitives to violent fugitives. We also found that
the USMS had not established any performance goals related to the


       20 Report No. H.R. 108-401, which accompanied the Department’s FY 2004
appropriations (Pub. L. No. 108-199).

       21  The Department’s FY 2000-2005 Strategic Plan, published in September 2000,
focused the Department’s apprehension efforts on federal fugitives, and the FY 2001-2006
Strategic Plan, published in November 2001 to address the events of September 11, focused
the Department’s apprehension efforts on violent federal and state fugitives.

        22 “Fugitives apprehended” were those arrested by the USMS, arrested by another

agency at the direction of the USMS, or who surrendered. “Fugitives cleared” were those
whose warrants were closed by means other than apprehension, such as dismissal of the
fugitive’s warrant by a federal magistrate or judge.

U.S. Department of Justice                                                          22
Office of the Inspector General
Evaluation and Inspections Division
                                              DRAFT


apprehension of violent federal and state fugitives. Instead, the USMS
continued to track and report annually on the number of all federal fugitives
apprehended or cleared.

    Chart 9: Federal and State Fugitives Apprehended by the USMS,
                          FY 2001 to FY 2004

    100%

     80%
                 30,041                 32,097                 37,206                  44,661
     60%

     40%

     20%         14,348                 15,627                 17,505                  21,600
      0%
                FY 2001                FY 2002                 FY 2003                 FY 2004

                     Violent federal and state fugitives   Other federal and state fugitives
Source: USMS WIN database

        The Marshals and Chief Deputy Marshals that we interviewed stated
that the USMS was limited in its ability to more rapidly or completely shift
focus. They noted, for example, “due diligence” responsibilities that require
the USMS to pursue all fugitives whether or not they are known or
suspected to be violent. 23 If the USMS does not pursue a fugitive for whom
it is responsible, a judge may dismiss the case for lack of a speedy trial
when the fugitive is apprehended. We found that the majority of the
USMS’s fugitive investigations involved fugitives not known to be violent. Of
the 176,753 federal fugitives recorded in WIN for FY 2004, only 34,586
(20 percent) were violent federal fugitives. The USMS’s responsibility to
pursue all fugitives limited its ability to fully shift its fugitive apprehension
efforts to focus on violent fugitives.

      Another factor that limited the USMS’s ability to change its focus was
that although the RTFs were established to investigate and apprehend the
most violent fugitives, the RTFs did not restrict the state fugitive
investigations they accepted to only violent fugitives. We found that 69

        23 “Due diligence” requirements are designed to ensure that a prosecution may

proceed under the federal Speedy Trial Act. Under 18 U.S.C. § 3161 (h)(3)(B) the
government must be able to demonstrate that a defendant’s whereabouts were unknown
either because the defendant was avoiding apprehension or because the defendant’s
whereabouts could not be determined after due diligence.

U.S. Department of Justice                                                                       23
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


percent of the RTF districts’ state fugitive apprehensions in FY 2004
involved fugitives not known to be violent. To maximize the effectiveness of
the RTFs, the USMS encourages its state and local task force partners to
bring their violent fugitive investigations to the RTFs. Task force
supervisors told us that to encourage this participation, the RTFs accepted
a wide range of state fugitive investigations considered important by state
and local agencies, rather than insisting that the fugitives investigated by
the RTF meet the USMS’s definition of a violent fugitive. The supervisors
also told us that an investigation may involve circumstances that make a
fugitive of particular concern, even though the fugitive was not violent. An
RTF Supervisory Inspector cited one example of a fugitive wanted for forgery
who created and supplied false identification documents to other fugitives.

State Fugitive Investigations Not Entered in WIN

       The USMS had no policy requiring that districts enter information
regarding state fugitive investigations they accepted in WIN when they
opened the investigation. In response to our survey, 52 of 88 districts
reported that they did not enter data on their state fugitive investigations
into WIN when the investigations were opened. These districts either did
not enter state fugitive data in WIN at all, did so after the investigation was
closed, or did so only if the investigation required specific USMS assistance.
For example, many Deputy Marshals we interviewed stated that they only
entered state fugitive information in WIN if they needed Electronic
Surveillance Unit assistance or wanted to make the state fugitive a Major
Case or Top 15 Most Wanted fugitive. Because the USMS does not record
all state fugitive investigations in WIN when the districts open an
investigation, it is not able to fully assess its progress at apprehending
violent fugitives at large or effectively focus its resources on apprehending
violent fugitives.

Impact of the Limiting Factors on USMS Fugitive Apprehension Efforts

       The three factors described above collectively limited the USMS’s
efforts to focus its resources on apprehending violent fugitives. We found
that the task forces such as the RTFs were significantly more effective and
efficient in apprehending violent fugitives because they enabled the USMS to
work more closely with state and local law enforcement personnel. The
failure to assign violent federal fugitive investigations to the task forces
while continuing to assign district personnel to the task forces meant that
there were proportionally fewer resources to conduct the violent federal
fugitive investigations in those districts. Consequently, the USMS achieved
a much greater increase in its apprehensions of violent state fugitives and a
less significant increase in apprehensions of violent federal fugitives. From
FY 2001 through FY 2004, violent federal fugitive apprehensions increased

U.S. Department of Justice                                                 24
Office of the Inspector General
Evaluation and Inspections Division
                                                          DRAFT


by 21 percent, while apprehensions of violent state fugitives increased by
96 percent (Chart 10).

        Chart 10: Violent Fugitives Apprehended, FY 2001 to FY 2004

                     25000

                     20000
     Apprehensions




                     15000

                     10000

                     5000

                        0
                             FY 2001                   FY 2002                FY 2003                 FY 2004

                               All violent fugitives       Violent state fugitives      Violent federal fugitives

  Source: USMS WIN database

       The impact of failing to assign violent federal fugitive investigations to
task forces is clearly demonstrated by the differing results achieved by the
RTF districts. Because not all USMS district offices assigned their violent
federal fugitive investigations to the RTFs, and because some RTFs accepted
state investigations of fugitives not considered violent to encourage state
participation, apprehensions of violent federal fugitives in some RTF
districts actually declined. This was demonstrated by the differing results
achieved by the New York/New Jersey and the Great Lakes RTF districts.
The New York/New Jersey RTF districts increased only their violent state
fugitive apprehensions during the 4-year period under review, while the
Great Lakes RTF districts improved their performance in both violent federal
and state fugitive apprehensions (Chart 11).




U.S. Department of Justice                                                                                          25
Office of the Inspector General
Evaluation and Inspections Division
                                               DRAFT


   Chart 11: Percentage Change in Federal and State Violent Fugitive
         Apprehensions by RTF Districts, FY 2001 to FY 2004

    850                           740
    750
    650                                                                                        561
    550
    450
    350
    250
    150
                    -34                                                     54
     50
    -50
                    New York/New Jersey                                          Great Lakes

                                 Violent federal fugitives   Violent state fugitives

  Source: USMS WIN database

      Both the New York/New Jersey and Great Lakes RTF districts
increased their apprehensions of violent state fugitives by more than
500 percent. Although the districts that made up the New York/New Jersey
RTF sometimes requested the RTF’s assistance in fugitive investigations,
they did not routinely use the RTF to conduct their violent federal fugitive
investigations. In addition, Deputy Marshals assigned to the RTF brought
with them their ongoing fugitive investigations (although the fugitives in
these investigations were not always classified as violent). As a result, the
number of violent federal fugitives apprehended in the New York/New
Jersey RTF districts declined by 34 percent from FY 2001 to FY 2004.

      In contrast, the districts that made up the Great Lakes RTF assigned
most of their violent federal fugitive investigations to the RTF. As a result,
the Great Lakes RTF districts achieved a 54-percent increase in
apprehensions of violent federal fugitives from FY 2001 to FY 2004. The
Marshals in these districts stated that they gave priority to the violent
federal warrants of the districts and sent the more serious, complicated
warrants to the RTF for investigation.

USMS Has Initiated Action to Better Manage Task Forces

       The USMS Investigative Services Division personnel told us that the
USMS is aware of the need for standardization and improvement of its task
force operations and it is currently working on Standard Operating
Procedures to direct task force operations. However, our review of the
minutes of the March 2005 USMS Chief’s Investigative Advisory Board
meeting indicated that the proposed Standard Operating Procedures do not



U.S. Department of Justice                                                                           26
Office of the Inspector General
Evaluation and Inspections Division
                                         DRAFT


address how violent federal fugitive investigations will be assigned to the
task forces. 24 The minutes indicate that the USMS is considering directing
the districts to enter violent state fugitives into WIN when an investigation is
opened. However, the proposed Standard Operating Procedures allow for
certain investigations not meeting the “violent fugitive” criteria to be
accepted by the RTFs and the districts, but not entered in WIN until they
are closed. If the USMS does not record all state fugitive investigations in
WIN when the districts open the investigation, it will not be able to fully
assess its progress at apprehending fugitives at large or assess the impact of
accepting investigations not classified as violent on the performance of its
fugitive apprehension program.

        The USMS headquarters staff also is studying ways to improve
coordination between the RTFs and the districts they serve, and to balance
the number of federal and state fugitive investigations. The participants at
the March 2005 Chief’s Investigative Advisory Board meeting suggested the
creation of coordinating committees that would include the Marshals and
RTF supervisors in RTF districts. These committees would meet quarterly to
facilitate coordination between the RTFs and districts and improve
communication between the RTF and district supervisors.




        24 The Chief’s Investigative Advisory Board is made up of senior career Deputy

Marshals from selected districts. The Board, which meets several times a year, provides a
field perspective on the development of policies and procedures relating to the
apprehension of fugitives.

U.S. Department of Justice                                                           27
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


                  CONCLUSION AND RECOMMENDATIONS


       The performance of the USMS in apprehending violent fugitives
improved significantly from FY 2001 to FY 2004. The number of violent
fugitives apprehended by the USMS and its state and local partners
increased by 51 percent from 14,348 fugitives in FY 2001 to 21,600 fugitives
in FY 2004. The number of violent fugitives apprehended per staff year also
increased from 18 violent fugitives per staff year in FY 2002 to 21 violent
fugitives per staff year in FY 2004. The improvement achieved by the USMS
fugitive apprehension program represented a significant contribution to the
Department’s efforts to reduce crime and improve public safety.

       Our analysis showed two main reasons for the increases in the
number of violent fugitives apprehended. First, the USMS increased the
staff years it devoted to fugitive apprehensions by 21 percent, from 911 in
FY 2002 to 1,104 in FY 2004, and became more efficient in its
apprehensions. Second, Congress directed and the USMS created five RTFs,
which were effective in increasing fugitive apprehensions.

       Notwithstanding these results, the number of violent federal fugitives
at large increased by 3 percent from FY 2001 to FY 2004. We found several
factors not within the USMS’s control that accounted for the increase in
violent federal fugitives at large. The number of violent federal fugitives
sought by the USMS increased because the increased number of federal
task forces throughout the country generated more federal fugitives. We
also found that the USMS investigated more federal fugitives referred from
other federal agencies, and that state and local law enforcement agencies
requested more assistance from the USMS in apprehending fugitives.

       We also identified three other factors, each within the USMS’s control,
which contributed to the increase in the number of violent federal fugitives
at large. These factors were that not all districts assigned violent federal
fugitive investigations to the task forces; the USMS did not fully change its
focus from apprehending all federal fugitives to apprehending violent
fugitives; and most districts did not enter data regarding their state fugitive
investigations in WIN when the investigations were opened so that the
USMS could fully assess its progress at apprehending violent fugitives at
large. By addressing these factors, we believe the USMS can improve its
apprehension of violent fugitives and reduce the number of violent fugitives
at large.

      The Department has proposed the creation of six additional RTFs.
Our analysis of the fugitive apprehension data from the districts that make
up the five existing RTFs compared to the non-RTF districts indicates that
U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


the six new RTFs can be expected to apprehend more violent fugitives, and
we believe the creation of new RTFs is warranted. However, to maximize the
effectiveness of the RTFs and the fugitive apprehension program in general,
we believe that the USMS needs to consistently assign violent federal
fugitive investigations to the RTFs and focus more on apprehending violent
fugitives.

       To further improve the USMS’s effectiveness in apprehending violent
fugitives and begin to reduce the number of violent federal fugitives at large,
we recommend that the USMS:

1. Establish goals and measures to track the USMS’s performance in
   apprehending violent fugitives and its progress in reducing the
   number of violent fugitives at large.

2. Require districts to enter state fugitive investigations in WIN when the
   investigations are opened by the USMS.

3. Establish criteria for districts to ensure that violent federal fugitive
   investigations are assigned to the RTFs and other task forces.

4. Analyze WIN data to ensure that the districts appropriately focus on
   violent federal and state fugitive investigations.

5. Consider creating the six RTFs proposed in the Department’s October
   2004 Fugitive Apprehension Report.




U.S. Department of Justice                                                    29
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


                       APPENDIX I: METHODOLOGY


      We examined the performance of Deputy Marshals working
individually or as members of warrant squads, district fugitive task forces,
or Regional Task Forces in apprehending federal and state violent fugitives
from Fiscal Year 2001 to FY 2004, as well as the reasons for any differences
in performance. We did not separately analyze the performance of the
proposed RTFs listed in the Department’s October 2004 Fugitive
Apprehension Report because the Assistant Director for the Investigative
Services Division told us that he would eventually like all 94 districts to be
included in RTFs. Therefore, we considered all districts currently not part of
an RTF as a single group.

       We conducted interviews with officials in United States Marshals
Service headquarters – the Assistant Director and other personnel within
the Investigative Services Division, as well as personnel within the Analytical
Support Unit and the Management and Budget Division. To examine the
differences in the various approaches to fugitive apprehension in the district
offices, we visited 12 of the 15 districts that are part of the 5 RTFs, as well
as 5 districts that are not part of an RTF. In each district, we interviewed
the Marshal and Chief Deputy Marshal (when available), warrant squad
supervisor (when available), Task Force Supervisory Inspector and
Inspectors (if applicable), Deputy Marshals involved with the Electronic
Surveillance Unit and the Financial Surveillance Unit, the WIN data
administrator, and Deputy Marshals involved in fugitive investigations. We
also interviewed representatives from other federal, state, and local agencies
who worked with the districts and RTFs to investigate and apprehend
fugitives. The districts and RTF offices we visited were:

New York/New Jersey RTF:
• District of New Jersey (Newark)
• Southern district of New York (Manhattan)
• Eastern district of New York (Long Island)
Pacific Southwest RTF:
• Central district of California (Los Angeles)
• Southern district of California (San Diego)
Great Lakes RTF:
• Northern district of Illinois (Chicago)
• Northern district of Indiana (Hammond)
Southeast RTF:
• Northern district of Georgia (Atlanta)
• Middle district of Georgia (Macon)


U.S. Department of Justice                                                30
Office of the Inspector General
Evaluation and Inspections Division
                                        DRAFT


Capital Area RTF:
• District of Columbia – District Court and Superior Court
• District of Maryland (Greenbelt and Baltimore)
• Eastern district of Virginia (Springfield)

We also conducted site visits in the following five districts:
• District of Massachusetts (Boston)
• District of Connecticut (New Haven)
• District of Rhode Island (Providence)
• Middle district of Florida (Orlando)
• Southern district of Florida (Miami)

        WIN Analysis. To analyze the USMS fugitive apprehension program
from FY 2001 through FY 2004, we examined data from the Warrant
Information Network database. We examined all warrants that were closed
on or after September 30, 2000, and that were received on or before
October 1, 2004. According to the Department’s FY 2004 Performance
Report, the USMS compares information contained in WIN to a random
sample of the Federal Bureau of Investigation’s National Crime Information
Center records to verify the accuracy of the information. USMS
headquarters also coordinates with districts to verify that warrants are
validated against the signed paper records. In addition to the internal check
of the WIN data, the OIG conducted an audit of WIN in November 2002 in
accordance with the Government Information Security Reform Act. 25 This
audit assessed the management, technical, and operational controls that
protected WIN data from unauthorized use, loss, or modification. The OIG
found significant vulnerabilities and made 28 recommendations to improve
the security of the WIN database. Currently, the one recommendation that
is still open is that the USMS enforce “Department-wide identification and
authentication policies and ensure that only authorized personnel can login
to the system.”

       Staff Year Analysis. To analyze the time spent by the USMS on
fugitive investigations, we reviewed time and attendance data recorded by
USMS personnel on the standard USM-7 form used by all USMS personnel
to record the time spent on USMS duties, such as fugitive investigation,
court operations, and prisoner transportation. Personnel assign their time
to specific project codes. For example, if a Deputy Marshal investigated a
federal felony fugitive for 3 hours, the time would be recorded under the
appropriate federal felony project code.


      25 Independent Evaluation Pursuant to the Government Information Security

Reform Act Fiscal Year 2002, The United States Marshals Service’s Warrant Information
Network I-2003-03 (November 2002).

U.S. Department of Justice                                                         31
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


       We requested data from the USM-7 database for all fugitive
investigation time for FY 2001 through FY 2004. However, the USMS could
provide data only from FY 2002 through FY 2004. We also received a
USM-7 project code guide, which contained a list of project code definitions.
For the purposes of our review, we used data entered under project codes
related to federal felony warrants, federal non-felony warrants, state
warrants, RTF assignments, and other administrative functions. We
eliminated project codes that were not relevant to our review or that were
not related to fugitive investigations (such as project codes related to court
security services). Besides time recorded by personnel in the 94 districts,
the USM-7 database captures time recorded by USMS headquarters
personnel as spent on fugitive investigations. We allocated this
headquarters time to each of the districts based on the proportion of the
district’s fugitive apprehension efforts to the overall USMS fugitive
apprehension efforts.

       We calculated staff years by dividing the number of hours worked in a
particular district or grouping of districts by 2,087 hours (the Office of
Personnel Management equivalent of one “full time equivalent” work year).
We did not calculate staff years allocated for state or federal fugitive
investigations separately because the USM-7 data does not distinguish
whether the time spent by Deputy Marshals on an RTF was for a federal or
state fugitive investigation.

       We did not test the validity of the USMS time and attendance records.
However, the USMS internally verifies USM-7 data each year, using a USMS
budget model to identify anything out of the ordinary reported by the
districts. The Management and Budget Division relies on district
supervisors to verify the accuracy of the USM-7 forms before forwarding
them to headquarters, and the Office of Inspections also conducts random
compliance reviews to ensure that personnel comply with USM-7 policy,
such as obtaining the proper supervisory signatures. No external audits
have been conducted on USM-7 data.

      Electronic Surveillance Unit Database Analysis. To analyze the
involvement of Electronic Surveillance Unit personnel in fugitive
investigations, we reviewed the database that tracks the unit’s assistance
with fugitive investigations and types of surveillance operations. We
examined the number of fugitive investigations in which Electronic
Surveillance Unit personnel assisted, as well as the number of arrests that
resulted from this assistance. We were unable to determine from the
database whether records pertained to federal or state fugitive
investigations, or whether the investigations originated from a district or a
task force. In October 2004, the Electronic Surveillance Unit added new


U.S. Department of Justice                                                32
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


variables to its database to track who requested assistance and whether the
investigation involved a federal or state fugitive.

       Electronic Surveillance Unit personnel stated that they conducted an
annual check of WIN to verify the Electronic Surveillance Unit database
numbers and to validate the number of arrests and arrest dates. We did not
test the validity of the database.

      District Survey. To learn more about each district’s fugitive
operations, we surveyed each of the 94 USMS district offices. We received
responses from 88 of the 94 (93.6 percent) district offices.

The survey contained 19 questions regarding the following:

       •   Allocation of Deputy Marshals among RTFs, district task forces,
           warrant squads, and other;
       •   Types of fugitive investigations conducted and by what entity;
       •   How districts prioritized investigations and decided who would
           investigate the various types of fugitives;
       •   Fugitives wanted by other federal components and agencies;
       •   Collateral leads sent and received;
       •   Assistance from the Electronic Surveillance Unit and the Financial
           Surveillance Unit;
       •   Satisfaction with fugitive apprehension efforts;
       •   WIN data entry; and
       •   Open-ended questions regarding possible improvements or
           changes needed in the fugitive apprehension program.

       We used the responses from the survey to further understand the
fugitive apprehension process, to verify information gathered during our
interviews, and to increase our understanding about districts that we did
not visit.

Definitions

In WIN, fugitive warrants are divided into general categories, as shown in
Table 4. In our analysis, one warrant equals one fugitive, even if one
fugitive had multiple warrants.




U.S. Department of Justice                                               33
Office of the Inspector General
Evaluation and Inspections Division
                                       DRAFT


                  Table 4: Category and Types of Federal Warrants
       Category of Warrant       Types of Warrants within Each Category
                                 Escape
                                 Bond violation
                                 Parole violation
                                 Probation violation
       Class I felony            Agency without arrest power
                                 Other
                                 Foreign fugitive
                                 Other referred
                                 Drug Enforcement Administration referred
                                 Traffic warrant
       Class II non-felony
                                 Misdemeanor warrant
       Class II felony           Other federal agency with arrest authority
       Other                     State or local warrant

      Federal Felony Fugitives. We defined federal felony fugitives as those
with Class I or Class II felony warrants.

      Federal Non-Felony Fugitives. We defined federal non-felony fugitives
as those with Class II non-felony warrants.

       Violent Federal Fugitives. We defined violent federal fugitives as those
fugitives who were designated in WIN as a 15 Most Wanted, Major Case, or
Category 1 fugitive. (A Category 1 fugitive is one whose underlying or
current offense is homicide, kidnapping, assault, aggravated assault,
robbery, arson, an “over-the-wall” escape, or involves weapons or
explosives.) Violent federal fugitives can be either Class I or Class II.

       State Fugitives. We defined state fugitives as those with a state or
local warrant. Some local jurisdictions, most notably the cities of Chicago
and New York, conduct state fugitive investigations based on probable cause
rather than a warrant. The USMS Deputy Marshals sometimes participated
in these investigations, but we included these fugitive investigations only if
the USMS entered a subsequently obtained warrant in WIN.

       Violent State Fugitives. We defined violent state fugitives as those
fugitives whose underlying or current offense was one used to designate a
federal fugitive as a Category 1 fugitive. The offenses include homicide,
kidnapping, assault, aggravated assault, robbery, arson, an over-the-wall
escape, or an offense involving weapons or explosives.

      Fugitives Apprehended. We defined fugitives apprehended as ones
who were physically arrested by the USMS, who were arrested by another
agency under the direction of the USMS (directed arrest), or who
surrendered to the USMS or another agency.
U.S. Department of Justice                                                    34
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


      Fugitives Cleared. We defined fugitives cleared as ones whose
warrants were closed by means other than apprehension by the USMS, as
defined above. This includes warrants cleared through arrests by other
agencies, lodged detainers, dismissals, the return of the warrants to the
originating agency, or the purging of the warrants.

       Clearances or Apprehensions by RTFs. Although WIN contains a field
that captures whether a district task force or RTF apprehended a fugitive,
we learned that USMS personnel did not consistently enter data in this field
when a task force was involved. Therefore, we analyzed RTF performance
based on the districts that constituted the RTFs as a whole (for example, the
Pacific Southwest RTF comprises the Southern and Central districts of
California). Any analysis regarding fugitives cleared or apprehended is
based on the performance of the districts participating in the RTFs because
we could not analyze individual RTFs’ performance separately from that of
the districts in which they operated.

       Fugitives at Large. We defined fugitives at large in a particular fiscal
year as those fugitives in WIN whose warrants were open at the end of the
fiscal year, regardless of when the warrant was opened.

       Apprehensions per Staff Year. We divided the number of
apprehensions of fugitives by the staff years applied to fugitive apprehension
by a given group of districts. For example, for federal fugitives, we divided
federal apprehensions in a group of districts in 1 year by total staff years
applied to fugitive apprehension in that same group of districts. If a group of
districts apprehended 100 federal fugitives and devoted 10 staff years to
fugitive apprehension in 1 year, then that group of districts apprehended 10
federal fugitives per staff year. This measure captures the number of
fugitives apprehended per staff year.

       Average Number of Days for Fugitive Arrest. Prior to FY 2002, the
Department measured the performance of the USMS fugitive apprehension
program by “the average number of days for fugitive arrest” for Major Case
fugitives and described the public benefit as follows: “The quicker a fugitive
is captured; the less the public is exposed to further risk of crime.” The
Department discontinued this measure in FY 2002 because “a warrant can
become a major case at any point in its investigation, [so] the age of the
warrant can dramatically skew the overall average number of days for
fugitive arrest in the major case category.” The USMS never applied this
now abandoned measure to all violent federal fugitive investigations.

      To determine whether the average number of days for fugitive arrest
was a useful measure at all, we calculated the average number of days
between the issuance of a warrant and the closure of the warrant from FY

U.S. Department of Justice                                                  35
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


2001 to FY 2004 for violent federal fugitives. We found that the average
number of days that violent federal fugitives remained at large before
apprehension varied from 111 to 113 days, even though half were
apprehended within 12 days. Marshals and Deputy Marshals we
interviewed told us that they often apprehend the newest fugitives first, or
as one RTF Supervisory Inspector stated, “while the trail is still warm.”
Even though half of the violent federal fugitives were apprehended within 12
days, some remained at large for years. These investigations that span
years explain why the average number of days for fugitive arrest is so much
larger than the median of 12 days. The average time violent federal fugitives
remain at large will not change significantly until the backlog of long-term
fugitives is reduced. We agree with the Department’s conclusion that the
average number of days for a fugitive arrest is not currently a useful
measure of the performance of the USMS fugitive apprehension program
and did not include this analysis.




U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT


               APPENDIX II: DISTRICT QUESTIONNAIRE


The Department of Justice Office of the Inspector General (OIG), Evaluations and Inspections
Division is conducting a nationwide evaluation of the Fugitive Investigations Program managed
by the United States Marshals Service (USMS). As part of that review, we are conducting this
survey of USMS districts to obtain input regarding the fugitive investigation efforts in your
district, as well as any opportunities you see for improvement.

Your input is very important to us, and we are counting on you to respond openly to the
questions provided. We also value your narrative comments, and we encourage you to include
them.

Questionnaire Information
   Name:
   Title:
   District:
   Years Served in the USMS:
   Years Served in this District:
   Phone:
   Fax:
   E-Mail:

PLEASE NOTE: For purposes of this questionnaire, the term “fugitive investigation” is defined
as the effort to apprehend one fugitive, regardless of the number of warrants for that fugitive or
the number of fugitives apprehended during one investigation.

DIRECTIONS: This survey should be completed by the Marshal, the Chief Deputy Marshal,
the Assistant Chief Deputy Marshal responsible for fugitive investigations, or the warrant
squad supervisor. Unless otherwise noted, please answer the following questions as they relate
to operations in your district, including all sub-offices. For questions regarding specific
numbers, please answer to the best of your ability. If you are unable to provide specific
numbers in certain sections, please indicate why. For those questions for which you cannot
provide data, we will attempt to obtain the information from USMS-wide databases.

To answer this questionnaire electronically, please click your cursor in the appropriate area
and type your response. After you have completed the questionnaire, please save the
document and e-mail it as an attachment to the following address: District.Survey@usdoj.gov.
If you prefer, you may print out the questionnaire, fill it out manually, and mail or fax it to the
following:
                              USMS Fugitive Investigations Questionnaire
                              U.S. Department of Justice
                              Office of the Inspector General (E&I)
                              1425 New York Avenue, N.W.
                              Suite 6100
                              Washington, DC 20530
                              FAX: 202-616-4584




U.S. Department of Justice                                                                37
Office of the Inspector General
Evaluation and Inspections Division
                                          DRAFT

I. PERSONNEL INVOLVED IN FUGITIVE INVESTIGATIONS

DEFINITIONS:
• USMS regional fugitive task force (RFTF): Task forces created by the Presidential
  Threat Protection Act of 2000. They include the New York/New Jersey RFTF, the Pacific
  Southwest RFTF, the Great Lakes RFTF, the Southeast RFTF, and the Capital Area
  RFTF.
• USMS district fugitive task force: Task force led by USMS district personnel within a
  district.
• Other fugitive task force not led by USMS: Task force in which the USMS
  participates, but that is led by another law enforcement agency. For example, an FBI-
  led Violent Crimes Task Force, or a DEA-led HIDTA Task Force.
• District warrant squad: Entity within district that investigates fugitives, but not as
  part of any task force.
• Other deputy marshals: Deputy marshals within district who conduct fugitive
  investigations as one of several duties, but who are not members of a warrant squad or
  any task force.

1. For each question in the left column of the table, please respond based on the entity
listed in the top row. If your district does not have a particular entity, please enter “N/A.”
Your answers should reflect your current operations.
                                       USMS         USMS           Other          USMS         Other
                                      regional     district    fugitive task     district    deputy
                                      fugitive     fugitive    force not led warrant marshals
                                     task force task force       by USMS          squad
1a. If your district is included
in an RFTF, how many
Investigative Services Division
personnel from USMS
Headquarters are assigned to
the RFTF in your district?

1b. How many district deputies
are normally assigned full
time?
1c. If the positions are
rotational for the full-time
deputies, how long is each of
the rotations?
1d. How many district deputies
are normally assigned part time
(i.e., they also perform other
duties such as judicial security
or prison transportation)?
1e. If the positions are
rotational for the part-time
deputies, how long are each of
the rotations?




U.S. Department of Justice                                                              38
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT

II. TYPES OF FUGITIVE INVESTIGATIONS CONDUCTED

DEFINITIONS:
• Violent federal Class I warrants: Warrants for fugitives for which the USMS has
  primary apprehension responsibility and which involve fugitives with criminal histories
  or investigations of violent crimes; fugitives wanted for “over-the-wall” escapes as
  distinguished from camp or halfway-house escapes; or fugitives wanted on DEA-
  initiated warrants for DEA Class 1 and 2 offenders and other DEA serious offenders.
• Non-violent federal Class I warrants: All other Class I warrants not included in
  category above.
• Federal Class II felony warrants: Felony fugitives for which another law enforcement
  agency has primary apprehension responsibility.
• Federal Class II non-felony warrants: Misdemeanor and traffic warrants for which
  the USMS has primary apprehension responsibility.
• State and local warrants: Warrants originating from a local or state law enforcement
  agency.
• Collateral leads: Information from another USMS district or from an RFTF regarding a
  fugitive who has fled to your district.

2. For fiscal year 2004, please estimate to the best of your ability the percentage of fugitive
investigations in your district that were conducted by the following entities. If your district
does not have a particular entity, please enter “N/A” for the entire column. Row
percentages should add up to 100 percent.

                     USMS           USMS           Other          USMS        Other
                    regional       district       fugitive       district     deputy
                    fugitive       fugitive      task force      warrant     marshals    TOTAL
                   task force     task force     not led by       squad
                                                   USMS
2a. Violent
federal Class I                                                                          100%
warrants
2b. Non-violent
federal Class I                                                                          100%
warrants
2c. Federal
Class II felony                                                                          100%
warrants
2d. Federal
Class II non-                                                                            100%
felony warrants
2e. State and
                                                                                         100%
local warrants
2f. Collateral
leads received
                                                                                         100%
from another
USMS district
2g. Collateral
leads received
                                                                                         100%
from a USMS
RFTF



U.S. Department of Justice                                                                39
Office of the Inspector General
Evaluation and Inspections Division
                                         DRAFT

3a. Please describe how your district determines which fugitive investigations are
assigned to the USMS regional fugitive task force. (If not applicable, please write “N/A”.)




3b. Please describe how your district determines which fugitive investigations are
assigned to the USMS district fugitive task force. (If not applicable, please write “N/A”.)




3c. Please describe how your district determines which fugitive investigations are
assigned to another fugitive task force not led by the USMS. (If not applicable, please
write “N/A”.)




3d. Please describe how your district determines which fugitive investigations are
assigned to the USMS district warrant squad. (If not applicable, please write “N/A”.)




3e. Please describe how your district determines which fugitive investigations are
assigned to deputy marshals not assigned to a district warrant squad or task force. (If
not applicable, please write “N/A”.)




3f. Please explain how your district prioritizes between federal fugitive investigations
and state and local fugitive investigations. (If not applicable, please write “N/A”.)




U.S. Department of Justice                                                            40
Office of the Inspector General
Evaluation and Inspections Division
                                          DRAFT

III. INVESTIGATIONS OF FUGITIVES
4. For the following fiscal years, please indicate the total number of Class I DEA fugitives
for which your district held the warrant:

                                            FY 2001      FY 2002      FY 2003      FY 2004
Number of DEA fugitives


5. For the following fiscal years, please indicate the number of Class I DEA fugitives for
which the DEA transferred primary apprehension responsibility to the USMS using the
DEA Form-202:

                                            FY 2001      FY 2002      FY 2003      FY 2004
Number of DEA fugitives


6. For the following fiscal years, please indicate the number of Class II federal felony
fugitive investigations that your district conducted for each of the following law enforcement
agencies that had primary apprehension responsibility.

                                            FY 2001      FY 2002      FY 2003      FY 2004
6a. Federal Bureau of Investigation

6b. Bureau of Alcohol, Tobacco,
Firearms and Explosives

6c. U.S. Secret Service

6d. Housing and Urban Development

6e. Social Security Administration

6f. Immigrations and Customs
Enforcement and Customs and Border
Protection
(in Department of Homeland Security)

6g. Other Agency:
6h. Other Agency:

6i. Other Agency:


6j. Other Agency:


* Formerly Immigration and Naturalization Service
** Formerly U.S. Customs Service and U.S. Border Patrol




U.S. Department of Justice                                                               41
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT

7. For the following fiscal years, please indicate the number of collateral leads that you
received from other USMS districts:

                                            FY 2001      FY 2002       FY 2003      FY 2004
Number of collateral leads from other
USMS districts

8. For the following fiscal years, please indicate the number of collateral leads that you
received from a USMS RFTF:

                                            FY 2001      FY 2002       FY 2003      FY 2004
Number of collateral leads from USMS
RFTFs

9. For the following fiscal years, please indicate the number of fugitive investigations
conducted by your district of state or local fugitives:

                                            FY 2001      FY 2002       FY 2003      FY 2004
Number of state or local fugitive
investigations


IV. TECHNICAL ASSISTANCE FOR FUGITIVE INVESTIGATIONS

10. For the following fiscal years, please indicate the number of fugitive investigations
conducted by your district for which you obtained assistance from the Technical Operations
Group (TOG) (i.e., Electronic Surveillance Unit).

                                            FY 2001      FY 2002       FY 2003      FY 2004
Number of fugitive investigations that
included assistance from TOG


11. For FY 2004, please indicate the number of fugitive investigations conducted by your
district for which you obtained assistance from the Financial Surveillance Unit, which
provides financial investigative tools to apprehend fugitives.


12. Which of the following statements best describes how your district enters state and
local fugitive investigations into the WIN database? Check one

   Our district does not enter state and local fugitive investigations into WIN.
   Our district enters state and local fugitive investigations into WIN when the
investigations are opened.
   Our district usually enters state and local fugitive investigations into WIN when the
investigations are closed, unless we need an FID number from WIN to facilitate the
investigation.
   Our district enters state and local fugitive investigations into WIN when the
investigations are closed.




U.S. Department of Justice                                                                 42
Office of the Inspector General
Evaluation and Inspections Division
                                           DRAFT

13. What district codes are used to identify your district, its sub-offices, and any task force
locations when entering data into WIN?

Code            Description of district, sub-office, or task force location represented by
                the code
 053             Eastern district of New York – Brooklyn location
 A53             Eastern district of New York – Islip sub-office
 N53             Eastern district of New York – Regional fugitive task force office




14. What task force codes are used to identify any task forces in your district when
entering data into WIN?

Code            Description of district, sub-office, or task force represented by the code
NYRT             New York/New Jersey regional fugitive task force
NETF             New England task force (in District of Massachusetts)




V. CONCLUSION

15. How satisfied are you with the fugitive apprehension efforts of the following (check one
in each row):
                           Very        Somewhat      Somewhat            Very           Not
                         Satisfied      Satisfied   Dissatisfied Dissatisfied Applicable
15a. Regional
fugitive task force
15b. USMS district
task force
15c. Other task force
not led by USMS
15d. USMS district
warrant squad
15e. Other deputy
marshals
15f. District’s efforts
overall




U.S. Department of Justice                                                                43
Office of the Inspector General
Evaluation and Inspections Division
                                       DRAFT

16. Please explain below your satisfaction or dissatisfaction with fugitive
apprehension efforts:




17. Please list below any improvements or changes that you would like to see in your
district’s fugitive apprehension efforts:




18. Please list below what you believe works best in your district regarding its
fugitive apprehension efforts:




19. If you have any other comments regarding the fugitive apprehension efforts in
your district, please include them below:




Thank you again for your time and assistance with this questionnaire.




U.S. Department of Justice                                                         44
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


     APPENDIX III: USMS’S RESPONSE TO DRAFT REPORT




U.S. Department of Justice                       45
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT




U.S. Department of Justice                    46
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT




U.S. Department of Justice                    47
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


      APPENDIX IV: OIG ANALYSIS OF USMS’S RESPONSE


      On June 13, 2005, the Office of the Inspector General (OIG) sent
copies of the draft report to the United States Marshals Service (USMS) with
a request for written comments. The USMS responded to us in a
memorandum dated July 5, 2005.

USMS Response

      The USMS agreed with the five OIG recommendations to further
improve the USMS’s effectiveness in apprehending violent fugitives and
reducing the number of violent federal fugitives at large. The USMS’s
response also described the actions it has taken and plans to take to
implement the recommendations.

OIG Analysis of the USMS Response

     The actions undertaken and planned by the USMS to improve the
USMS’s effectiveness in apprehending violent fugitives and to reduce the
number of violent federal fugitives at large are responsive to our
recommendations.

RECOMMENDATIONS

      Recommendation 1: Establish measures and goals to track the
USMS’s performance in apprehending violent fugitives and its progress in
reducing the number of violent fugitives at large.

       Summary of USMS Response. The USMS agreed with the
recommendation and will develop performance standards and measures of
its progress in apprehending violent fugitives and reducing the number of
violent fugitives at large by October 1, 2005.

      OIG Analysis. Recommendation 1 is Resolved – Open. The actions
planned by the USMS to develop performance standards and measures are
responsive to our recommendation. Please provide a copy of the
performance standards and measures by November 1, 2005.

      Recommendation 2: Require districts to enter state fugitive
investigations in the Warrant Information Network (WIN) when the
investigations are opened by the USMS.

     Summary of USMS Response. The USMS agreed with the
recommendation and stated that to fully assess its progress in
U.S. Department of Justice                                               48
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


apprehending violent fugitives, districts must enter state fugitive
investigations into WIN as investigations are opened. Also, the USMS stated
that additional administrative resources are required for entering all state
fugitives into WIN. The USMS will develop procedural policy and guidelines
regarding the entry of state fugitives into WIN by October 1, 2005.

      OIG Analysis. Recommendation 2 is Resolved – Open. The actions
planned by the USMS to develop procedural policy and guidelines and to
request additional administrative resources to ensure that state fugitive
investigations are entered into WIN when investigations are opened are
responsive to our recommendation. Please provide a copy of the procedures
and of all requests for additional resources by November 1, 2005.

      Recommendation 3: Establish criteria for districts to ensure that
violent federal fugitive investigations are assigned to the Regional
Fugitive Task Forces (RTF) and other task forces.

       Summary of USMS Response. The USMS agreed that establishing
criteria for the referral of violent federal fugitive cases to the RTFs and other
task forces is necessary. The USMS plans to establish procedural and
policy guidance governing the assignment of violent federal fugitive cases,
including collateral leads, to the RTFs and district task forces, and will
make recommendations regarding these policies by October 1, 2005.

      OIG Analysis. Recommendation 3 is Resolved – Open. The actions
planned by the USMS to develop procedural and policy guidance governing
the assignment of violent federal fugitive cases to the RTFs and district task
forces are responsive to our recommendation. Please provide a copy of the
recommendations regarding the procedural and policy guidance by
November 1, 2005.

       Recommendation 4: Analyze WIN data to ensure that the
districts appropriately focus on violent federal and state fugitive
investigations.

       Summary of USMS Response. The USMS agreed with the
recommendation and noted that the USMS already conducts some analyses
using WIN data. The USMS plans to improve this effort by incorporating the
performance measures created in response to Recommendation 1 and other
pertinent information into improved WIN data analyses. These analyses are
designed to improve the USMS’s effectiveness in apprehending violent
fugitives and reducing the number of violent fugitives at large.

     OIG Analysis. Recommendation 4 is Resolved – Open. The actions
planned by the USMS to improve WIN data analysis and develop new

U.S. Department of Justice                                                  49
Office of the Inspector General
Evaluation and Inspections Division
                                      DRAFT


reporting requirements are responsive to our recommendation. The USMS
plans to implement this new analysis effort by December 1, 2005. Please
provide a status report on the development of improved WIN analysis by
November 1, 2005.

     Recommendation 5: Consider creating the six RTFs proposed in the
Department’s October 2004 Fugitive Apprehension Report.

      Summary of USMS Response. The USMS agreed with the
recommendation and will continue to request appropriations for staffing and
funding to create additional RTFs.

      OIG Analysis. Recommendation 5 is Resolved – Closed. The actions
planned by the USMS to request appropriations for staffing and funding to
create additional RTFs are responsive to our recommendation.




U.S. Department of Justice                                            50
Office of the Inspector General
Evaluation and Inspections Division
